OFFICE OF INSPECTOR GENERAL


WORLDWIDE AUDIT OF
USAID’S PROCUREMENT AND
DISTRIBUTION OF
COMMODITIES FOR THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-000-09-011-P
August 13, 2009




WASHINGTON, DC
Office of Inspector General

August 13, 2009

MEMORANDUM

TO:                  GH/OHA Director, Robert Clay

FROM:                IG/A/PA Director, Steven Bernstein

SUBJECT:             Worldwide Audit of USAID’s Procurement and Distribution of Commodities for the
                     President’s Emergency Plan for AIDS Relief (Report No. 9-000-09-011-P)


This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report in finalizing the audit report and have included your response in
appendix II of the report.

The report contains two recommendations intended to improve the effectiveness and
implementation of USAID’s PEPFAR program. Final action has been reached, and both
recommendations are closed upon issuance of this report.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

           Storage Conditions Need Improvement ................................................................ 4

           Management of Expired Commodities Needs Improvement................................. 6

           Program Reporting Needs Improvement............................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I—Scope and Methodology......................................................................... 11

Appendix II—Management Comments........................................................................ 13

Appendix III—Audit Reports Issued ............................................................................ 15
SUMMARY OF RESULTS
This report summarizes the results of the Office of Inspector General audits conducted
at five selected missions—Côte d’Ivoire, Haiti, Mozambique, Vietnam, and Zambia. See
appendix III for a list of audit reports issued.

On May 27, 2003, President George W. Bush signed the President’s Emergency Plan
for AIDS Relief (PEPFAR) into law. PEPFAR is a multifaceted initiative to combat the
disease around the world. The United States leads the world in its level of support for
the fight against HIV/AIDS (human immunodeficiency virus/acquired immunodeficiency
syndrome) and, as of January 3, 2008, $18.8 billion has been committed to this effort
(see page 2).

In implementing PEPFAR, the U.S. Government works with international, national, and
local leaders worldwide to support integrated prevention, treatment, and care programs.
PEPFAR is directed by the Department of State’s Office of the U.S. Global AIDS
Coordinator. The Bureau for Global Health has general responsibility for USAID’s
participation in PEPFAR (see page 2).

The objective of this audit was to determine whether USAID procured, deployed, and
warehoused its PEPFAR commodities to ensure that intended results are achieved and
to assess the programs’ impact (see page 2).

In general, all five audits concluded that USAID procured, deployed, and warehoused its
PEPFAR commodities to help ensure that intended results were achieved. In addition,
all five audits concluded that USAID efforts resulted in an overall positive impact on the
program (see page 3).

This audit report addresses three issues related to commodities management and data
quality assurance:       (1) improving storage conditions for PEPFAR commodities,
(2) limiting the expiration of commodities and deterring the storage and use of expired
commodities, and (3) verifying reported data (see pages 4–9).

This report recommends that USAID’s Office of HIV/AIDS Director send a written
request to the Department of State’s Office of the U.S. Global AIDS Coordinator, asking
that office to issue clear and explicit guidance to all missions with PEPFAR activities to
ensure that (1) standards for warehousing commodities and (2) standards for managing
expiring commodities are distributed to all warehousing facilities. We also recommend
that implementation of the standards is reviewed and monitored regularly (see pages 6
and 7).

USAID’s Office of HIV/AIDS agreed with the recommendations in our draft audit report
and has implemented the recommendations. USAID’s Office of HIV/AIDS requested
that the Office of the U.S. Global AIDS Coordinator send out guidance to all PEPFAR
country teams, partners, and Ministry of Health counterparts, regarding standards and
best practices for warehousing of commodities and standards for managing expired
commodities. As a result of management’s actions, final action has been reached and
both recommendations are closed upon issuance of this report. Management’s
comments are presented in their entirety in appendix II.


                                                                                        1
BACKGROUND
Recognizing the global pandemic of HIV/AIDS (human immunodeficiency virus/acquired
immunodeficiency syndrome) as one of the greatest challenges of our time, Congress
enacted legislation to fight HIV/AIDS internationally through the President’s Emergency
Plan for AIDS Relief (PEPFAR)—the largest international health initiative in history by
one nation to address a single disease. Although PEPFAR originally had planned to
provide $15 billion over 5 years for prevention, treatment, and care of individuals with
HIV/AIDS, $18.8 billion has been committed through January 3, 2008, with 58 percent
allocated to programs in 15 focus countries: 12 countries in Africa (Botswana, Côte
d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa,
Tanzania, Uganda, and Zambia), and 3 other countries (Guyana, Haiti, and Vietnam).
PEPFAR also devoted $5 billion over 5 years to other bilateral programs in more than
100 countries and increased the U.S. pledge to the Global Fund (a public-private
partnership that raises money to fight AIDS, tuberculosis, and malaria) by $1 billion over
5 years. The United States has contributed more than $2.5 billion to the Global Fund.

The Department of State’s Office of the U.S. Global AIDS Coordinator (AIDS
Coordinator) directs PEPFAR. To ensure program and policy coordination, the AIDS
Coordinator manages the activities of the U.S. Government agencies responding to the
pandemic. The in-country teams that implement PEPFAR comprise staff from USAID,
the Department of State, the Department of Health and Human Services, and other
agencies. The Bureau for Global Health has general responsibility for USAID’s
participation in PEPFAR. The director of USAID/Global Health’s Office of HIV/AIDS
provides the technical leadership for USAID’s program.

PEPFAR has set aggressive goals to address the worldwide HIV/AIDS pandemic. The
worldwide goal over 5 years is to treat 2 million HIV-infected people, prevent 7 million
HIV infections, and care for 10 million people infected with or affected by HIV/AIDS,
including orphans and vulnerable children.

This audit covered country missions in Côte d’Ivoire, Haiti, Mozambique, Vietnam, and
Zambia.


AUDIT OBJECTIVE
As part of the Office of Inspector General’s annual audit plan for fiscal year 2008, the
Performance Audits Division directed this audit to answer the following question:

• Has USAID procured, deployed, and warehoused its PEPFAR commodities to ensure
that intended results are achieved, and what impact have the programs made?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        2
AUDIT FINDINGS
In general, all five of the audited missions procured, deployed, and warehoused their
President’s Emergency Plan for AIDS Relief (PEPFAR) commodities to ensure that
intended results were achieved. In addition, all five audits concluded that USAID efforts
have resulted in an overall positive impact in the activities to combat HIV/AIDS (human
immunodeficiency virus/acquired immunodeficiency syndrome).

Procurement. The audits of USAID/Haiti, USAID/Vietnam, USAID/West Africa, 1 and
USAID/Zambia concluded that commodities were procured as planned to ensure that
commodities were available when needed. However, the audit at USAID/Mozambique
concluded that the mission had procured only 46 percent of its planned commodities in
the 2007 country operational plan during the fiscal year (FY) 2007, owing to the date that
FY 2007 funding was received. USAID/Mozambique had procured 100 percent of its
planned commodities by the end of FY 2008.

Deployment. The five audits noted that commodities were generally deployed first to
the central warehouses and then to the district storage facilities for distribution to clinics
and hospitals. At facilities in five locations, the auditors reported that antiretroviral drugs
and laboratory supplies generally were available when needed.                    However, at
USAID/West Africa, the audit concluded that some health facilities lacked antiretroviral
drugs and laboratory supplies.

Warehouse storage. The audits of USAID/Haiti, USAID/Mozambique, USAID/Vietnam,
and USAID/Zambia concluded that storage conditions at the warehouse facilities visited
generally met the standards established by the host government. However, the audit of
USAID/West Africa concluded that several of the warehouse facilities visited did not
meet the standards tested.

Impact. The five audits concluded the following:

      • At USAID/Haiti, the program exceeded the FY 2007 target of 300,000 people
        tested for HIV/AIDS, an important achievement in a country where stigma with
        regard to HIV/AIDS remains strong. PEPFAR also substantially increased the
        number of individuals on antiretroviral therapy—an important indicator because
        antiretroviral therapy allows those with HIV/AIDS to live longer and healthier lives.

      • At USAID/Mozambique, according to the mission’s annual progress report for
        FY 2007, 78,236 individuals were receiving antiretroviral therapy. In settings
        other than preventing mother-to-child transmission of HIV, the mission reported
        that 422,209 individuals received counseling and testing for HIV/AIDS.

      • At USAID/Vietnam, the mission’s efforts made a significant impact by increasing
        access to antiretroviral therapy and helping people with HIV/AIDS live longer and
        healthier lives. Before the Government of Vietnam launched the national AIDS
        treatment program in 2003, few people had access to life-extending antiretroviral
        drugs.
1
    USAID/West Africa is the USAID mission that manages the activities in Côte d’Ivoire.


                                                                                             3
   • At USAID/West Africa, the mission’s efforts had a substantial positive impact on
     the number of individuals receiving antiretroviral therapy. PEPFAR annual reports
     indicate that the number of individuals receiving antiretroviral therapy increased
     from 11,097 in September 2005 to 20,923 in September 2006.

   • At USAID/Zambia, the program exceeded the FY 2007 and 2008 targets for
     individuals on therapy. Although the Office of the Global AIDS Coordinator has
     not established any required indicators related to the procurement, deployment, or
     warehousing of commodities, a related indicator—the number of individuals on
     antiretroviral therapy—demonstrates that USAID’s efforts have made a
     substantial impact in this area. Draft information provided by USAID/Zambia, as
     of September 30, 2007, shows that the mission’s use of PEPFAR funds helped to
     provide therapy to 46,670 individuals, approximately 38 percent of the total
     (122,684) reported for Zambia in the most recent PEPFAR annual performance
     report. This information indicates that Zambia had already exceeded the FY 2007
     target of 109,050 individuals on therapy and the FY 2008 target of 120,000
     individuals on therapy.

Despite the achievements at the five missions audited, this audit identified opportunities
to strengthen PEPFAR program activities by (1) improving storage conditions for
PEPFAR commodities, (2) limiting the expiration of commodities and deterring the
storage and use of expired commodities, and (3) validating and verifying reported data.
These areas are discussed in the following sections.



Storage Conditions
Need Improvement

Summary. John Snow, Inc., in collaboration with the World Health Organization under
the USAID/Deliver Project, established standards to ensure proper storage of PEPFAR
commodities. However, at four of the five missions audited, some standards were not
followed for various reasons, including lack of training for the warehouse staff and failure
to fully implement the partner’s monitoring and evaluation plan. Inadequate storage
conditions could result in reduced quality, efficacy, and shelf life of commodities as well
as their loss or theft.

John Snow, Inc., in collaboration with the World Health Organization under the
USAID/Deliver Project, established standards to ensure the security and proper storage
of PEPFAR commodities. However, at four of the missions audited, some standards
were not met. For example, antiretroviral drugs were not always stored in secured
facilities, some drugs were not stacked properly or stored at appropriate temperatures,
and some warehouses lacked fire extinguishers and smoke detectors.

Security of facilities. At USAID/Haiti, some commodities were kept in kitchens and
other office locations because they needed cold storage that was not available in a new
warehouse. At USAID/Mozambique, the Ministry of Health warehouse did not have a
designated space for test kits and antiretroviral drugs. Stock was not kept in a secure,




                                                                                          4
designated storage area. At the warehouses in USAID/West Africa (Côte d’Ivoire),
boxes were stacked in unsecured hallways and rooms.

Stacking of commodities.             At USAID/Mozambique and USAID/Zambia, some
antiretroviral drugs at Ministry of Health facilities were stacked next to the wall, leaving
insufficient space for air circulation, access to the commodities, cleaning, or inspection.
At USAID/Mozambique, some boxes were not stacked on pallets, some boxes were
upside down, labels were not clearly marked, and mildew was found on the boxes. At
USAID/Zambia, expired and unexpired drugs were not always stored separately. Also,
at USAID/West Africa, boxes were stacked upside down at several warehouses the
auditors visited.




             Antiretroviral drugs stacked against the storeroom wall at the central
             warehouse in Lusaka, Zambia. Photograph taken by an OIG auditor on
             November 7, 2007.



Temperature control of stored commodities. At USAID/Mozambique, one Ministry of
Health facility visited did not have air conditioning for temperature-sensitive medications
and test kits. At USAID/Zambia, many Ministry of Health facilities visited were unable to
store commodities at the proper temperature. Most did not have fans in the storerooms.
Some facilities did not have air conditioners or had air conditioners that did not work. At
USAID/West Africa (Côte d’Ivoire), several warehouses did not have air conditioning to
maintain the recommended storage temperature.

Fire extinguishers and smoke detectors at warehouses. At USAID/Haiti, the new
central warehouse did not have a smoke detector or posters indicating what to do in the
event of a fire. At USAID/Mozambique and USAID/Zambia, some facilities did not have
fire extinguishers, and one facility at USAID/Mozambique had a fire extinguisher but the
staff had not been trained to use it.



                                                                                          5
At USAID/Haiti, a condenser (needed to properly store temperature-sensitive
commodities) and a smoke detector for the new central warehouse had been ordered
but had not arrived at the time of the audit. At USAID/Mozambique, the Global Health
Bureau added that the storage problems were caused by a lack of training, a complete
and sudden transition of responsibility from a parastatal organization to the Ministry of
Health, incomplete implementation of the standard operating procedures, and a lack of
regular mission site visits to the warehouses because of USAID staff shortages.

At USAID/Zambia, the poor storage conditions at the Ministry of Health facilities were
caused by a delay in fully implementing the partner’s monitoring and evaluation plan and
by the need for additional training for storage facility staff. Inadequate storage
conditions could result in reduced quality, efficacy, and shelf life of commodities and
their loss or theft. Since four of the five missions audited had some storage conditions
that needed improvement, the audit team is concerned that conditions at other locations
might have the same problems. Given the importance of proper commodity storage, the
audit team believes that all missions with PEPFAR commodities should review the
standards established and monitor adherence to those standards at each location.
Therefore, this audit makes the following recommendation.

     Recommendation 1: We recommend that USAID’s Office of HIV/AIDS
     Director send a written request to the Department of State’s Office of the U.S.
     Global AIDS Coordinator, asking that office to issue clear and explicit
     guidance to all missions with PEPFAR activities to ensure that (a) standards
     for warehousing commodities are distributed to all warehousing facilities, and
     (b) implementation of the standards is reviewed and monitored regularly.


Management of Expired Commodities
Needs Improvement
Summary. The manufacturer of the HIV test kits recommended that expired or faulty
HIV test kits not be used, because they were likely to provide false results. Also, the
program should try to prevent commodities from expiring and should promptly destroy
those that do expire.     Activities at one of the five audited missions used expired
commodities and had a stockpile of expiring commodities. At another mission, expired
commodities were not used or destroyed but were kept in storage for up to 2 years.
Expired commodities could have been detected and addressed more quickly through
better USAID monitoring. The use of expired test kits may defeat the accuracy of the
HIV test results used to determine whether a person should be on antiretroviral therapy,
potentially endangering the patient. Moreover, expired drugs represent a loss of
resources that otherwise could have been used to achieve program objectives.

The manufacturer of the HIV test kits recommended that expired or faulty kits not be
used because they were likely to provide either a false negative or false positive that
could jeopardize the medical care of the patient. Therefore, the program should try to
prevent commodities from expiring and should promptly destroy those that do expire.

At USAID/Mozambique, however, some health clinics used expired HIV test kits. The
health clinic staff did not monitor inventory by expiration date, and moreover,


                                                                                       6
Mozambique’s Ministry of Health allowed the clinics to use the commodities within 90
days after the expiration date. The use of expired test kits may affect the accuracy of
the HIV test results used to determine whether a patient should be on antiretroviral
therapy, potentially endangering the patient.

In addition, at USAID/Mozambique, 244 bottles of expired drugs were stored at the
warehouses, and an additional 3,034 bottles of drugs valued at $8,294 were nearing
expiration at the time of the audit. A lack of coordination among donors resulted in this
oversupply of the commodities, which expired because they could not be used.

At USAID/Haiti, expired drugs valued at $313,443—including various antiretroviral drugs,
HIV test kits, and opportunistic-infection drugs—were stored at the central warehouse.
The drugs expired because the central warehouse did not have a forecasting tool. Most
have been stored for more than 2 years and take up a good portion of the warehouse.
They had not been destroyed when they expired because an incinerator was not
regularly available. Expired drugs represent a loss of resources that otherwise could
have been used to achieve program objectives. Also, the expired drugs could be
inadvertently given to patients.




Expired products at the new PEPFAR central warehouse, Port-au-Prince, Haiti. Photographs taken
by an OIG auditor on May 29, 2008.



Since two of the five audited missions had issues related to expired or expiring
commodities, the audit team is concerned that other locations might have a similar
problem. Accordingly, we make the following recommendation.

      Recommendation 2: We recommend that USAID’s Office of HIV/AIDS
      Director request in writing that the Department of State’s Office of the U.S.
      Global AIDS Coordinator issue clear and explicit guidance to all missions with
      PEPFAR activities to ensure that (a) standards for managing expiring
      commodities are distributed to all warehousing facilities, and (b)
      implementation of the standards is reviewed and monitored regularly.




                                                                                                 7
Program Reporting
Needs Improvement

 Summary. According to USAID policy, performance data should be accurate and
 reliable, and missions should take steps to ensure that submitted data are adequately
 supported. However, in three of the five missions audited, discrepancies with reported
 numbers were noted. The problems with the data quality occurred because of the lack
 of supervisory review or verification of data quality to ensure that reported information
 is accurate. Reliance on inaccurate data could result in inappropriate management
 decisions or in understated or overstated results.

Automated Directives System (ADS) 203.3.5.2 requires operating units that report
Agency performance data to USAID/Washington or externally, for reporting purposes
under the Government Performance and Results Act of 1993, to conduct a quality
assessment of their data within 3 years prior to submission. Operating units may choose
to conduct data quality assessments more frequently. ADS 203.3.5.2 also states that
operating units and strategic objective teams should be aware of the strengths and
weaknesses of their data and the extent to which the data’s integrity can be trusted to
influence management decisions. In addition, according to ADS 203.3.5.1 and USAID
TIPS 12, “Analyzing Performance Data” (supplemental guidance referenced by the
ADS), performance data should be accurate and reliable, and missions should take
steps to ensure that submitted data are adequately supported.

At three of the five audited missions, problems with reported data were noted.

   •   At USAID/Mozambique, the data reported by the partners were not verified, and
       the mission thus erroneously reported cumulative figures instead of the required
       annual data.

   •   At USAID/Vietnam, four of the seven outpatient clinics audited (57 percent) had
       discrepancies in the “number of individuals on antiretroviral therapy” as of
       September 30, 2007. That number is important because it is one of the key
       performance indicators required by PEPFAR, and the Supply Chain Management
       System in Vietnam used that indicator to estimate the quantity of drugs to order
       for each health facility.

   •   At USAID/West Africa, the program’s two implementing partners reported
       inconsistent and inaccurate information to the Centers for Disease Control and
       Prevention on the number of active patients using antiretroviral drugs. The two
       implementing partners overreported the numbers by 50 percent and 54 percent,
       respectively.

The audits noted that the problems with the data quality occurred because of the lack of
supervisory review or verification of data quality to ensure that reported information is
accurate. These discrepancies increase the risk that reported data may not accurately
reflect whether PEPFAR is achieving its objectives. Also, reliance on inaccurate data
could result in inappropriate management decisions or in understated or overstated




                                                                                             8
results. Therefore, a mission cannot reliably determine whether its program is achieving
planned results, and the mission may report inaccurate information to decision makers.

Since PEPFAR activities in three of the five audited missions had data quality issues, the
audit team is concerned that PEPFAR activities in other missions also may have data
quality issues. Given the importance of data quality assurance, the audit team believes
that all missions with PEPFAR activities should be provided with clear and explicit
guidance. However, because another audit 2 recently provided a recommendation that
will address this issue, this audit does not make a new recommendation for this finding.




2
 Audit of USAID’s Implementation of the President’s Emergency Plan for AIDS Relief (Report No.
9-000-08-008-P), June 2, 2008.


                                                                                             9
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Office of HIV/AIDS agreed with the recommendations in our draft audit report
and has implemented the recommendations. USAID’s Office of HIV/AIDS agreed to
request that the Office of the U.S. Global AIDS Coordinator send out guidance to all
PEPFAR country teams, partners, and Ministry of Health counterparts regarding
standards and best practices for warehousing of commodities and standards for
managing expired commodities. Management indicated that this guidance is taken from
World Health Organization guidelines and the Supply Chain Management System
standard operating procedures, which represent internationally recognized best practice.
Prior to the issuance of this report, the Office of HIV/AIDS provided a copy of the request
sent to the Office of the U.S. Global AIDS Coordinator. As a result of management’s
actions, final action has been reached, and both recommendations are closed upon
issuance of this report. Management’s comments are presented in their entirety in
appendix II.




                                                                                        10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. This audit was designed to determine whether USAID procured,
deployed, and warehoused its President’s Emergency Plan for AIDS Relief (PEPFAR)
commodities to ensure that intended results are achieved and to assess what impact the
activities have made.

This report summarized the results of audit work conducted at five overseas missions as
follows:

   •   Côte d’Ivoire—at the mission and various sites from March 5 to April 3, 2008

   •   Haiti—at the mission and various sites from May 27 through June 13, 2008

   •   Mozambique—at the mission and various sites from March 4 through
       May 2, 2008

   •   Vietnam—at the mission and various sites from February 19 through
       March 13, 2008

   •   Zambia—at Washington, DC, because it was a pilot audit, and at the mission and
       various sites from October 30, 2007, through March 11, 2008

In conducting these audits, we assessed the effectiveness of USAID’s internal controls
related to PEPFAR. These controls included the control over reporting the number of
individuals on antiretroviral therapy and control over antiretroviral drug and HIV test
storage conditions. The management controls assessed also included the country
operational plan and other monitoring activities.

The cutoff date for measuring achievement of selected outputs was
September 30, 2007, for USAID/Haiti, USAID/Mozambique, USAID/Vietnam, and
USAID/Zambia. The cutoff date was December 31, 2007, for USAID/West Africa (Côte
d’Ivoire).

Methodology
We reviewed documentation related to PEPFAR, including the missions’ annual reports,
cooperative agreements, and contracts, implementing partners’ quarterly and annual
progress reports, and field trip reports to determine progress toward outputs. We
interviewed officials, including mission staff working under PEPFAR, implementing
partners, and subpartners, and visited various sites.




                                                                                       11
                                                                              APPENDIX I



We conducted site visits to the warehouses and health facilities. At the warehouses, we
observed storage conditions, conducted test counts of selected antiretroviral drugs and
test kits, interviewed responsible staff, and inquired as to availability of essential
medicines and laboratory supplies. At the health facilities, we observed storage
conditions in the storerooms, dispensaries, and laboratories; conducted test counts of
selected antiretroviral drugs and test kits; inquired as to the availability of essential
medicines and laboratory supplies; tested the accuracy of the number of individuals on
antiretroviral therapy; reviewed monthly commodity ordering reports; and interviewed
staff.

The audit reports used the following definitions and materiality thresholds to answer the
audit objective:

   •   “PEPFAR commodities” are products purchased with PEPFAR funding for the
       detection and treatment of HIV/AIDS, including antiretroviral drugs, test kits,
       lab equipment, lab supplies, and essential drugs and medicines used to
       prevent and treat HIV/AIDS-related opportunistic infections.

   •   Commodities were considered to have been “procured” if at least 90 percent
       of the procurement funding reported in the 2007 country operational plan was
       used to procure PEPFAR commodities during 2007. We used a 90 percent
       materiality threshold because this procurement target is not a PEPFAR-
       mandated target.

   •   Commodities were considered to have been “deployed” if products procured
       were distributed to storage and/or health facilities and to patients on
       antiretroviral therapy.

   •   Commodities were considered to have been “warehoused” if storage
       conditions at storage facilities visited met the Ministry of Health standards.
       Storage conditions were considered “met” if most facilities visited met Ministry
       standards; storage conditions were considered “not always met” if most
       facilities visited met Ministry standards, but with qualifications or exceptions;
       and storage conditions were considered “not met” if most facilities visited did
       not meet Ministry standards.

   •   The Department of State’s Office of the Global AIDS Coordinator has not
       established any required targets or indicators for measuring commodity
       procurement results. Therefore, for the purposes of this audit, we defined
       “intended results” as the procurement, storage, and distribution of
       commodities planned in the 2007 country operational plan and “achievement
       of the required 2007 PEPFAR target” as the number of individuals on
       antiretroviral therapy.




                                                                                           12
                                                                           APPENDIX II



     MANAGEMENT COMMENTS



Date: June 30, 2009

To: Steven H. Bernstein, IG/A/PA Director

From: Robert Clay, GH/OHA Director

Subject: Management comments on the Worldwide Audit of USAID’s Procurement and
Distribution of Commodities for the President’s Emergency Plan for AIDS Relief (Report
No. 9-000-09-00X-P)

GH/OHA appreciates the IG conducting the audit on the PEPFAR commodities
procurement and distribution program. The above subject Audit Report and
recommendations will improve the procurement and distribution of essential HIV/AIDS
commodities across PEPFAR programs and help ensure that the people served by these
programs have access to quality life-saving anti-retroviral drugs and other medicines and
supplies.

GH/OHA has reviewed and is in agreement with both recommendations. The
following represents the comments and decisions of GH/OHA management on actions planned
to be taken, in order to properly address the recommendations contained in the report.

Recommendation 1: We recommend that USAID’s Office of HIV/AIDS Director send a written
request to the Department of State’s Office of the U.S. Global AIDS Coordinator to issue clear
and explicit guidance to all missions with PEPFAR activities to ensure that (a) standards for
warehousing commodities are distributed to all warehousing facilities, and (b) implementation of
the standards is reviewed and monitored regularly.

Recommendation 2: We recommend that USAID’s Office of HIV/AIDS Director request in
writing that the Department of State’s Office of the U.S. Global AIDS Coordinator issue clear
and explicit guidance to all missions with PEPFAR activities to ensure that (a) standards for
managing expiring commodities are distributed to all warehousing facilities, and (b)
implementation of the standards is reviewed and monitored regularly.

GH/OHA agrees with both the above recommendations and will request that the Office of the
U.S. Global AIDS Coordinator send out guidance to all PEPFAR country teams, partners and
Ministry of Health counterparts, regarding standards and best practices for warehousing of
commodities, and standards for managing expired commodities. This guidance will be taken
from WHO guidelines and SCMS standard operating procedures which represent internationally




                                                                                            13
                                                                             APPENDIX II


recognized best practice. GH/OHA will send the request to the PEPFAR Coordinator, along
with the standard operating procedures, by July 17, 2009.
As seen in four of the five country programs included in this audit, the majority of PEPFAR
funded HIV/AIDS commodities are warehoused and distributed as part of the national Ministry of
Health supply chain system and all warehousing facilities are national government facilities. This
avoids unnecessary duplication by supporting existing supply chains and encourages
sustainability. USAID provides technical assistance in warehousing or inventory management to
all of the countries where commodities are procured. The Office of HIV/AIDS will continue to
encourage PEPFAR country teams to provide support in this important area and to monitor how
Ministries of Health are warehousing products and managing expiring commodities, but the
facilities themselves are outside of direct USAID control. Developing the capacity and improving
the viability of national supply chains for health commodities remains a priority for USAID and
for the second phase of PEPFAR.

For facilities managed by USAID’s contractor, SCMS, such as the warehouse in Haiti and the
three Regional Distribution Centers (RDCs) in Africa, USAID will continue to ensure and monitor
that warehousing best practice and appropriate inventory management of expiring commodities
are being implemented. The Kenya and Ghana RDCs represent regional best practice for
pharmaceutical warehousing and the overall percentage of drugs lost to expiry at the RDCs is
less than private sector rates for similar operations. USAID will continue to monitor the RDCs to
ensure that expiry is kept to a minimum while at the same time guaranteeing the availability of
life-saving medicines to the people we serve.




                                                                                            14
                                                                       APPENDIX III



            Audit Reports Issued
        The following reports were issued as part of this worldwide audit.
               The reports are available on USAID/OIG’s Web site:
                 http://www.usaid.gov/oig/public/aud_usaid.htm


Report No. 9-611-08-007-P, Audit of USAID/Zambia’s Procurement and Distribution of
Commodities for the President’s Emergency Plan for AIDS Relief, May 30, 2008.

Report No. 5-440-08-007-P, Audit of USAID/Vietnam’s Procurement and Distribution of
Commodities for the President’s Emergency Plan for AIDS Relief, July 7, 2008.

Report No. 1-521-09-001-P, Audit of USAID/Haiti’s Procurement and Distribution of
Commodities for the President’s Emergency Plan for AIDS Relief, October 16, 2008.

Report No. 4-656-09-001-P, Audit of USAID/Mozambique’s Procurement and
Distribution of Commodities for the President’s Emergency Plan for AIDS Relief,
December 18, 2008.

Report No. 7-624-09-002-P, Audit of USAID/West Africa’s Procurement and Distribution
of Commodities in Côte d’Ivoire for the President’s Emergency Plan for AIDS Relief,
May 8, 2009.




                                                                                  15
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: 202–712–1150
           Fax: 202–216–3047
           www.usaid.gov/oig
